HHS/OIG, Audit -"Review Of Fiscal Year-End Billing For Inpatient Rehabilitation Facility
Claims At MaineGeneral Medical Center For 2002, 2003 and 2004,"(A-01-05-00508)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review Of Fiscal Year-End Billing For Inpatient Rehabilitation Facility Claims At MaineGeneral Medical
Center For 2002, 2003 and 2004," (A-01-05-00508)
August 29, 2005
Complete
Text of Report is available in PDF format (350 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether MaineGeneral Medical Center (the hospital) billed
fiscal year-end inpatient rehabilitation facility (IRF) claims for 2002-2004 in accordance with Medicare
regulations.  The hospital did not bill fiscal year-end claims for its IRF in accordance with
Medicare regulations.  As a result, Medicare made net overpayments totaling $254,915.  The
hospital received inaccurate information from its fiscal intermediary that contributed to the problem
of split billing in 2003 and 2004.
We recommended that the hospital improve controls to ensure that current Medicare billing guidelines
are followed.  We also recommended that the hospital continue to work with its fiscal intermediary
to complete the voluntary repayment process involving the net overpayments of $254,915 and determine
the resulting effect on its Medicare cost reports for 2002 - 2004.  The hospital agreed with our
recommendations.